                                                      NATIONAL
                                                       OFFICE OF SCIENCE
                                                                 INSPECTOR
                                                                         FOUNDATION
                                                                           GENERAL
     z                                                   OFFICE OF INVESTIGATIONS

     $@o.a<\'
      4

          ON
                                                CLOSEOUT MEMORANDUM

    Case Number: I04060018                                                                       Page 1 of 1



              he National Science Foundation, Office of Inspector General (NSFIOIG) received an allegation
            from the Principal investigatori (PI) regarding financial mismanagement of an NSF award.2

            NSFIOIG contacted the university' and requested detailed accounting of the expenses charged to
            the NSF award. We also requested information as to any change of the PI on the above-
            mentioned award. A review of the Financial Cash Transaction Reports (FCTR's) for the last
            active quarter of the award revealed that the remaining funds4had been expended. The
            University provided all requested information and adequate documentation to support the final
            expenditures to the NSF award.

            The University also provided a copy of a letter that indicated that the PI had accepted a position
            as a tenured professor at another university5 and had not been on campus since the spring of
            2003. The University further advised that there was no requirement to inform NSF of the PI'S
            departure because his employment officially terminated after the NSF award closed.

            1contacted the Program Officer ( ~ 0and  ) ~advised him of the situation regarding the status of the
            final report for the NSF award. The PO explained that the PI is responsible for preparing and
            submitting the final report based on the scientific results, and that the PI would be unable to
            receive additional funding until he submitted the final report.

            Due to the lack of evidence to support the misuse of Federal funds, this case is recommended for
            closure.

            Accordingly, this case is closed




               Footnote redacted
               Footnote redacted
               Footnote redacted
               Footnote redacted
               Footnote redacted
               Footnote redacted



v

    NSF 01G Form 2 (1 1/02)
